                               FEDERAL MARITIME COMMISSION
                                   BOO North Capitol Sfreet, N.W. 

                                      Washington, DC 20573 


                                          June 10, 2009
Office of Inspector Gel/eral

                                                                           Tel.:   (202) 523-5863
                                                                           Fax:    (202) 566-0043
                                                                           E-mail: oig@Fmc.gov


Mr. Curtis W. Crider
Inspector General
U.S. Election Assistance Commission
1225 New York Ave., NW, Suite 1100
Washington, DC 20005

SUbject: 	       System Review Report on the U.S. Election Assistance Commission Office of
                 Inspector General Audit Organization


Dear Mr. Crider:

Altachcd is the final System Review Report of the U.S. Election Assistance Commission's
Office of Inspector General audit organization conducted in accordance with Government
Auditing STandards and Council of the Inspectors General on Integrity and Efficiency guidelines.

We agree with your proposed corrective action to tbe recommendations. Y OUf response to the
repon is included in its entirety after the al ener of Comment." We thank you and your still for
your assistance and cooperation during the peer review.




Inspector General

Enclosures (2)
                              FEDERAL MARITIME COMMISSION
                                    800 North Capitol Street, N.W.
                                       Washington, DC 20573

                                           June 10, 2009
Office of Inspector General

                                                                             Tel.:   (202) 523-5863
                                                                             Fax:    (202) 566-0043
                                                                             E-mail: oig@rmc_gov
                                      System Review Report



Mr. Curtis W. Crider, Inspector Oeneral
U.S. Election Assistance Commission


We have reviewed the system of quality control for the audit function of U.S. Election
Assistance Commission (EAC) Office of Inspector General (OIG) in effect [or the year ended
March 31, 2009. A system of quality control encompasses SAC OIG 's organizational structure
and the policies adopted and procedures established to provide it with reasonable assurance of
conforming with Gvvernment Auditing ,)'randards. The elements of quality control are described
in Gvvernment Auditing Standards. The EAC oro is responsible for designing a system of
guality control and complying with it to provide EAC OIG ''veith reasonable assurance of
perfonning and reporting in conformity with applicable professional standards in all material
respects. Our responsibility is to express an opinion on the design of the system of quality
control and EAC OIG's compliance therewith based on our review.

Our review was conducted in accordance with Government AudiliJ1K Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE).
During our review, we interviewed EAC OIG personnel and obtained an understanding of the
nature of the EAC 010 audit function, and the design of the EAC OIG's system of quality
control sufficient 10 assess the risks implicit in its audit runction. Based on our assessments, we
selected audits and administrative files to test for conformity with professional standards and
compliance with the EAC OIG's system of quality control. The audits selected represented a
reasonable cross-section of the EAC OIG's audit function, with emphasis on higher-risk audits.
Prior to concluding the review. we reassessed the adequacy of the scope of the peer review
procedures and met with EI\C OIG management to discuss the results of our review. We believe
that the procedures we performed provide a reasonable basis for our opinion.

In perfonning our review, we obtained an understanding of the system of quality control for the
EAC OIG's audit function. In addition, we tested compliance with t.he EAC 01G's quality
control policies and procedures to the extent we considered appropriate. These tests covered the
application of U1C EAC OIG's policies and procedures on selected audits. Our review was based
on selected tests; therefore, it would not necessarily detect all weaknesses in the system of
quality control or all instances of noncompliance witl1 it.

There are inherent limitations in the effectiveness of any system of quality control, and therefore
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation or a system of quality control to future periods is subject to the risk that the
s1'stem of quality control may become inadequate because of changes in conditions. or because
the degree of compliance with the policies or procedures may deteriorate.

Enclosure 1 to this report identifies the office of the EAC OIG that we visited and the audits
reviewed.

In our opinion, the system of quality control for the audit function of EAC 01G in effect for the
year ended March 31,2009, has been suitably designed and complied with to provide EAC OIG
with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Federal audit organizations can receive a rating of
pass. pass with defiCiencies, or Iail. EAC OIG has received a peer review rating of pass. As is
customary, we have issued a letter dated June J 0,2009, that sets forth the findings related to the
design of and compliance with EAC OIG's system of quality control that were nol considered to
be of sufficient significance to affect our opinion expressed in this report.

In addition to revie\.ving its system of quality control to ensure adherence with Government
Audiling Standards, we applied certain limited procedures in accordance with guidance
established by the PCTE and ECIE related to EAC OIG 's monitoring of audit work performed by
independent Public Accountants (IPA) under contract. It should be noted that monitoring of
audit work performed by IPAs is not an audit and therefore is not subject to the requirements of
Government Auditing Standards. The purpose of Ollr limited procedure was to determine
whether EAC OIG had controls to ensure IPAs perfOlmed contracted work in accordance with
professional standards. However, our objective was not to express an opinion and accordingly,
we do not express an opinion, on SAC OIG's monitoring of work perfonned by IPAs. \Vc made
certain comments related to EAC ~IG's monitoring of work performed by IPAs that are
included in the above referenced letter dated June 10,2009.




lnspeelOr General

Enclosure 1




                                                  2

                       SCOPE AND METHODOLOGY (Enclosure 1)


Scope and Methodology

We tested compliance v..rith the EAC OJG's systems of quality control to the extent we
considered appropriate. These rests included a review orthree of 12 audit reports issued during
the pcrjod April I> 2008 through March 3 L 2009, and semi-annual reporting periods of April I,
2008 through March 31,2009. We also reviewed the intemal quality control reviews perfonnecl
by EAC 010.

In addition, we reviewed the EAC OIO's monitoring of audits perfonned by IPAs during the
period April 1, 2008 through March 31, 2009. During the period, EAC 010 contracted forthe
audit of its agency)s Fiscal Year 2008 financial statements. EAC oro also contracted for certain
other audits that were to be performed in accordance with Government Audiling Standards.

We visited the EAC   oro in Washington, DC.
Reviewed Audits Performed by EAC OIG

Report No.            Report Dale           Report Title
E-HP-NM-O \-07        05127108              Administration of Payments Received under the
                                             Help American Vote Act by New Mexico
                                             Secretary of State

Reviewed Monitoring Files of EAC OIG for Contracted Audits

                      Report Date           Report Title
I-P !\-EAC-02-08      03/04/09 	            Report of U.s. Election Assistance Compliance
                                             with Section 522 of the 2005 Consolidated
                                             Appropri81ions Act

J-PA-EAC-OI-0S        11117/08              Audit of the U.S. Election Assistance
                                             Commission's FY 2008 Financial Statements
                                   FEDERAL MARITIME COMMISSION
                                        800 North Capitol Street, N.W.
                                           Washington, DC 20573

                                               June J 0, 2009
Office of ITlSpeCf(}r G{'II(!rol

                                                                          Tel.:   (202) 523-5863
                                                                          Fax:    (202) 566-0043
                                                                          E-mail: oig@rmc.gov


Mr. Curtis W. Crider, Inspector General
U.S. Election Assistance Commission


We have reviewed the system of quality control for the audit function of the U.S. Election
Assistance Commission (EAC) Office of Inspector General (OIG) in effect for the year ended
March 31,2009, and have issued our report thereon dated June 15,2009, in which the EAC OIG
received a rating of pass. That report should be read in conjlmction w-ith tJ1e comments in this
lener, which were considered in determining our opinion. 1l1e findings described below were
not considered to be of sufficient significance to affect the opinion expressed in thal repon.

          Finding 1.          lndepcndence - Independence Statement not Completed

         The EAC O[G qualiry control policies and procedures require an "Independence
         Statement" for individuals charging time directly to lhe assignment. This assists in
         identifying personal and external impairments to independen(;e and in documenting
         compliance with the GovernmenT AudWng Standards independence requirements. The
         "Independence Statement" was not completed for the audit of Adminislration of
         Paymenls Received under the American VOle Act by The New Mexico Secrelary o/StaTe.
         This audit was performed by Department ofIntcrior (Dol) OIG auditors on loan to EAC.
         We were unable to discuss impainnent issues \vilh members of the audit team because
         many team members retired in FY 2007 and FY 2008. However, EAC OIG workpapers
         contained an independence statement signed by the referencer from the National
         Endowment of Arts.

         Recommendation - The OIG should adhere to its policy on independence and obtain
         "Independence Statements" from auditors performing work for EAC OIG.

         Views of Re!iponsible Official. Agree.
Finding                                      .........."LI   (ePE)

The DIG's                                                performing work, including
planning,                                  or reporting on an audit or attestation
                                                  hours of CPE every 2 years. AI least 24
                                            related to government auditing, the
                          rooment, or              or unique environment in which the
                                      on loan rrom Dol did not have the required CPEs.

                             should ensure auditors on loan from other Federal agencies
                        when          in audits.




Finding 3,      Audit Documentation - Workpapen & Supervisory Review

Tbe        pol'                        rc mal work papers include purpO$e,
methodology                      source and conclusion. TI1e DIG's policies and
procedures also                           during the course of the audit. The review of
the program audit           by me Dol auditors found that audit documentation did not
always comply with both                 Inspector General acknowledged the absence of
the work                sources and conclusions and the supervisory review of all
                               on ensuring that documents supporting the final report's
                              were properly prepared. 'nlis was noted during our
review.

                                       should use its "Workpaper Review Checklist'l ro
                                          support for audit documentation and




  addition to                       of quality control to ensure adherence with
             Auditing Standard" we applied certain limiled procedures in o.ro"",.,..
                          by     PCIE and ECIE related to EAC OIG's monitoring
                      by Independent Public Accountants (IP A) under contract.
                       one finding:
Finding                     Oversight Tool Not Used

EAC                      that. for audits perfonned by contractors,
                        - MonilDring AudUs Performed by
                           ofEAC OIG's workpapers for the FY
           indicated that the Checklist was in the working papers
                       indicated that he received the working papers
            and, therefore, did nol complete the Checklist. We also
             was not complete the Inspector General did monitor the
           with the IPA, approval of invoices and cmails to the IPA

          should ensure that its Checklist is completed for each IPA­
                     u.s.
                                                Office of]
                                       June 9, 2009


Mr. Adam R. Trzeciak
Inspeccor General
Federal Maritime Commission
800 North Capil.al Streer, N.W.
Washington, DC 20573


Dear Mr. Trzeciak:

Thank you for the opportunity to respond to your May 28, 2009, draft letter of comment
on the external peer review of the U.S. Election Assistance Commission (EAC), Office of
Inspector General (OIG) audit function. We were very pleased wjrh the ourcome oryour
evaluation. Your review con finned that our system of quality control has been suitably
designed and implemented to provide reasonable assurance lhat we are conducting and
reporting audits in conformance with applicable professional standards.

The draft lener of comment discusses four issues that you determined were not
considered to be of sufficient significance to affect our peer review rating. We concur
with all four recommendations in the draft letter and provide the following responses.

   Finding 1. Independence - Independence Statement Not Com pleted

   Annually and for each Dssignment, auditors are required to sign a statement certifying
   that they are free from personal and external impairments (0 independence. The OIG
   also requires that our independent reference verifiers sign an independence statemenL
   [Iowever, J agree that we should adhere to our policy on independence and obtain
   "Independence Starcmenrs" from audiLOrs performing work for the CAC OIG.

   As an additional contro!, the OIG requires staff to sign and submit bi-weekly
   individual timcsheets that contain a certification attesting to their independence.
   These individual timeshects were in use during the peer review period.

   Finding 2. Continuing Professional Education (ePE)

   The OIG agrees with your recommendation thar it should ensure audirors on loan
   from other federal agencies have the required CPEs when assisting in audits. All
   staffperlorming work under GAGAS, whether internal or on loan, are required to
   meet the 80/24 ePE requirements over a 2-year period in accordance with the
   standards.
                                               on loan from another federal agency retired
                                        cycle. As it was neither reasonable nor
                                            to train the auditors, remaining scheduled
                                                      noted that one auditor completed the
                                                     course designed to provide noo­
                                                           acquisition process, This course
                                                                government environment, or
                                                   the EAC operates,



                                              10 the peer review rei ired prior to 

                                         and the issuance orlhe final report For the 

                                   auditors were directed to focus on the completion of the 

                                               and recommendations. It would have been
     inappropriate    an                 who did not work on the audit to complele the
     audit work. For that reason, workpaper anti supervisory review efforts were focused
     on those documents supporting the tinal repol1. and recommendations.

     Subsequent to the                  final       the OIG developed a "Work paper
     Review Check]                       Ihe OIG concurs wit.h your recommendation that it
     should use the checklist to ensure that lhe workpapers have the necessary support for
     audit documentation                    review.



     We concur with your recommendation that rhe OIG should ensure its checklist for
                                 IPAs is completed. AS discussed in the draft letter of
                             was maintained but incomplete. The subject audit resulted in
                             and, therefore. we did not feel it was neces..<;ary to complete
                              the OIG reviewed the audit documentation sLlpporting the
                     to                 to ensure the findings. conclusions. and
                        mel applicable standards.

                           in conducling lhis external peer review and in making the
                              in the draft letter of comment. [fyou have any questions or
comments            to our           to the draft letter, please contact me at (202) 566­
31


                                        Sincerely,



                                        Curtis W. Crider 

                                        Inspector General 

